No.

In the

Supreme Court of the United States
MICHAEL J. DEMARTINI, ET AL.,

v.

Petitioners,

TIMOTHY P. DEMARTINI, ET AL.,

Respondents.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF SERVICE
I, Kathryn M. Davis, counsel for Petitioners, and a member of the Bar of this
Court, hereby certify that on the 24th day of May, 2021, I caused a copy of the
Petition for Writ of Certiorari in the above-referenced case to be served
electronically upon counsel for Respondents listed below, pursuant to the Parties’
agreement to electronic service:
David B. Dimitruk
LAW OFFICES OF DAVID B. DIMITRUK
5 Corporate Park, Suite 220
Irvine, CA 92606
dspacetime@aol.com

Executed on May 24, 2021.
By:
Kathryn M. Davis
LAW OFFICE OF KATHRYN M. DAVIS
530 South Lake Ave.,
No. 425
Pasadena, CA 91101
(626) 356-8059
kathryn.davis@kmdavislaw.com

Counsel for Petitioners

2

